HHS/OIG-Audit--"Audit of Equipment Acquisitions through Capital Leases and Other Financing Agreements at the Ohio Department of Administrative Services, (A-05-91-00066)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Equipment Acquisitions through Capital Leases and Other Financing
Agreements at the Ohio Department of Administrative Services," (A-05-91-00066)
March 12, 1992
Complete Text of Report is available in PDF format
(1.28 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Ohio Department of Administrative Services (ODAS) had the responsibility
for the procurement of data processing equipment used by various State departments
and agencies. The ODAS billed the user agencies for the equipment. This report
points out that billings to the agencies during the period July 1, 1982 through
June 30, 1989 included about $8.2 million ($4.9 million Federal share) of interest
expense and other unallowable costs related to the acquisitions. The unallowable
charges to Federal programs are attributed to a lack of adequate procedures
to identify interest expense and account for the cost of the equipment. We recommended
that ODAS work with the other user agencies in establishing procedures to identify
and properly account for the costs of data processing equipment. We also recommended
that ODAS make a financial adjustment of $4,897,056 (Federal share) for costs
improperly charged to Federal programs through June 30, 1989. State officials
generally concurred with our findings and recommendations.